                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor                                           ADMINISTRATION


                     Office of Inspector General—Office of Audit




                                                                   RECOVERY ACT: OUTCOMES FROM ON-THE­
                                                                   JOB TRAINING NATIONAL EMERGENCY GRANTS




                                                                   This audit was performed by McBride, Lock & Associates, under contract to
                                                                   the Office of Inspector General, and by acceptance, it becomes a report of
                                                                   the Office of Inspector General.



                                                                                      _____________________________
                                                                                      Assistant Inspector General for Audit




                                                                                                   Date Issued:                 March 25, 2014
                                                                                                Report Number:                18-14-001-03-390
U.S. Department of Labor                                   March 25, 2014
Office of Inspector General
Office of Audit
                                                           RECOVERY ACT: OUTCOMES FROM ON-THE­
                                                           JOB TRAINING NATIONAL EMERGENCY
                                                           GRANTS
BRIEFLY…
Highlights of Report Number 18-14-001-03-390, issued       WHAT OIG FOUND
to the Acting Assistant Secretary for Employment and       While participants achieved outcomes that met or
Training.                                                  exceeded expectations, ETA could strengthen controls
                                                           to better ensure grantees’ OJT contracts comply with
WHY READ THE REPORT                                        policy requirements and grantees obtain adequate
The American Recovery and Reinvestment Act                 documentation to support payments to OJT employers.
(Recovery Act) of 2009 was intended to preserve and
create jobs, promote the nation’s economic recovery,       Our validation of participant outcomes found that 78
and assist those most impacted by the recession. The       percent of sampled participants completed training, 72
Recovery Act provided the Department of Labor (DOL)        percent obtained employment, and 84 percent were still
with an additional $75 million for On-the-Job Training     working in the second and third quarters after first
(OJT), National Emergency Grants (NEGs). DOL               becoming employed. These entered employment and
awarded funds to 45 grantees: 41 states, the District of   employment retention rates exceeded the entered
Columbia, and 3 Native American tribes.                    employment and retained employment rates reported
                                                           by ETA for the overall WIA Dislocated Worker program
This report discusses the Department’s efforts to          in Program Year 2010 (July 1, 2010 – June 30, 2011).
expand OJT using Recovery Act funds and the extent to
which those efforts resulted in successful outcomes for    The audit did identify opportunities for ETA to improve
program participants. The report offers two                its administration of OJT grants. The OJT contracts with
recommendations to improve DOL’s efforts to ensure         employers we reviewed were not consistently designed
grantees are properly administering their OJT contracts.   or implemented according to guidelines established by
                                                           ETA, resulting in questioned costs totaling $86,754.
WHY OIG CONDUCTED THE AUDIT                                Additionally, grantees’ lack of adequate documentation
We conducted a performance audit of the use of             or sufficient review of employer reimbursement
Recovery Act OJT NEG funds administered by the             requests resulted in an additional $275,513 of
Department of Labor’s (DOL) Employment and Training        questioned costs.
Administration (ETA) to answer the following questions:
                                                           WHAT OIG RECOMMENDED
  (1) Did the grantees ensure that Recovery Act funds      We recommended the Acting Assistant Secretary for
      were properly administered and awarded, and          Employment and Training require grantees to follow
      that eligible participants were served?              ETA guidance and ensure OJT contracts are designed
                                                           in compliance with the terms and conditions of the
  (2) Were participants trained and placed in              grant, including documentation requirements; and
      employment, and did they continue employment?        recover $362,267 in questioned costs, as appropriate.

  (3) Were employers properly and accurately               The Acting Assistant Secretary for Employment and
      reimbursed for training?                             Training stated that ETA currently requires grantees to
                                                           comply with OJT requirements, but ETA will consider
READ THE FULL REPORT                                       OIG’s recommendation when producing new or updated
To view the report, including the scope, methodology,      guidance and technical assistance for state and local
and full agency response, go to:                           workforce areas and when monitoring grantee activities.
http://www.oig.dol.gov/public/reports/oa/2014/18-14-
001-03-390.pdf.
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                             Recovery Act OJT NEG
                                        Report No. 18-14-001-03-390
                                                                        Prepared by McBride, Lock & Associates
                                                    For the U.S. Department of Labor – Office of Inspector General




Table of Contents

Independent Auditor’s Report.......................................................................................... 1

RESULTS........................................................................................................................ 2
         A) Grantees ensured service providers served eligible participants.
            However, service providers did not ensure compliance in the design
            and implementation of on-the-job training contracts........................................ 3
         B) Approximately 78 percent of sampled participants completed the
            training program, 72 percent entered employment, and 84 percent
            retained employment with OJT employers. ..................................................... 4
         C) Some employers were not properly and accurately reimbursed for
            training. ........................................................................................................... 6

RECOMMENDATIONS ................................................................................................... 7

Exhibits
         Exhibit 1 Recovery Act On-the-Job Training National Emergency Grants
            Awarded ........................................................................................................ 11
         Exhibit 2 Selected Sub-grantees and Participants .............................................. 13
         Exhibit 3 Detail of On-the-Job Training Contract Issues ..................................... 15
         Exhibit 4 Detail of Improper Employer Reimbursements .................................... 19

Appendices
         Appendix A Background ..................................................................................... 25
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 27
         Appendix C Acronyms and Abbreviations .......................................................... 31
         Appendix D ETA Response to Draft Report ....................................................... 33




                                                                                                  Recovery Act OJT NEG
                                                                                             Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                             Recovery Act OJT NEG
                                        Report No. 18-14-001-03-390
                                                                          Prepared by McBride, Lock & Associates
                                                      For the U.S. Department of Labor – Office of Inspector General


SUITE 900
1111 MAIN STREET
KANSAS CITY, MO 64105
TELEPHONE: (816) 221.4559
FACSIMILE: (816) 221.4563
EMAIL: Admin@McBrideLock.com
CERTIFIED PUBLIC ACCOUNTANTS
McBRIDE, LOCK & ASSOCIATES
  

  

  March 25, 2014 

                                            Independent Auditor’s Report



  Eric Seleznow
  Acting Assistant Secretary
   for Employment and Training
  U.S. Department of Labor
  200 Constitution Avenue, NW
  Washington, D.C. 20210


  The American Recovery and Reinvestment Act (Recovery Act) was signed into law by
  President Obama on February 17, 2009. The Recovery Act was intended to preserve
  and create jobs, promote the nation’s economic recovery, and to assist those most
  impacted by the recession. The Recovery Act provided an additional $75 million 1 for
  On-the-Job Training (OJT) National Emergency Grants (NEG) to temporarily expand the
  program at the state and local levels. The Employment and Training Administration
  (ETA) awarded these funds to 45 grantees: 41 states, the District of Columbia and
  3 Native American tribes. Grantees had until June 30, 2012, to spend these funds. On
  August 6, 2010, ETA issued Training and Employment Guidance Letter (TEGL) 4-10 to
  states and local workforce areas on implementation of the OJT NEGs funded with the
  Recovery Act. ETA provided special policy guidelines for OJT NEGs for this one-time
  funding opportunity. McBride, Lock & Associates, under contract with the Department of
  Labor’s (DOL) Office of Inspector General (OIG), audited the use of Recovery Act funds
  provided for OJT NEG for the period from June 30, 2010, the inception of the grant,
  through the end of fieldwork.

  We conducted a performance audit of the use of Recovery Act OJT NEG funds
  administered by ETA to answer the following questions:

      (1) & Did the grantees ensure that Recovery Act funds were properly administered and
            awarded, and that eligible participants were served?

                                           

  1
      The allocation provided to the grantees is outlined in Exhibit 1. 




                                                                                           Recovery Act OJT NEG
                                                             1                        Report No. 18-14-001-03-390
                                                                Prepared by McBride, Lock & Associates
                                            For the U.S. Department of Labor – Office of Inspector General


    (2)   Were participants trained and placed in employment, and did they continue
          employment?
    (3)   Were employers properly and accurately reimbursed for training?

To conduct this audit we interviewed officials at ETA, employees from the selected
grantees and sub-grantees, and sampled participants and their OJT employers. The
sample of 9 grantees included 8 states and 1 federally-recognized Native American
tribe. A statistical sample was then selected of the sub-grantees at each of the selected
grantees, of which 36 total sub-grantees were reviewed. We selected a statistical
sample of 377 2 of the 1,055 participants enrolled with the selected grantees and
sub-grantees at September 30, 2011. The audit fieldwork concluded in August 2012,
which allowed for adequate time to pass in order to confirm entered employment and
retention for the majority of the participants.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are more fully detailed
in Appendix B.

RESULTS

Overall, the grantees had sufficient controls to ensure eligible participants were served.
However, the OJT contracts with the employers were not consistently designed and
implemented. Our validation of participant outcomes found that 78 percent of sampled
participants completed training, 72 percent obtained employment, and 84 percent were
still working in the second and third quarters after first becoming employed. According
to ETA officials, these entered employment and retention percentages for the long-term
unemployed exceeded ETA’s expectations that were based on other ETA programs and
the ramp-up needed to bring the program online. 3 Finally, certain grantees did not
require payroll support for employer reimbursements and did not adequately review
reimbursement requests to ensure compliance with the terms and conditions of the
grant agreement.




2
  The sample of participants by grantee and sub-grantee is outlined in Exhibit 2.
3
  ETA officials stated the entered employment and employment retention rates exceeded overall WIA Dislocated
Worker PY2010 entered employment and employment retention rates of 57.3 and 81.9 percent, respectively. These
rates were not audited.



                                                                                    Recovery Act OJT NEG
                                                  2                            Report No. 18-14-001-03-390
                                                                    Prepared by McBride, Lock & Associates
                                                For the U.S. Department of Labor – Office of Inspector General


A. Grantees ensured service providers served eligible participants. However,
   service providers did not ensure compliance in the design and implementation
   of on-the-job training contracts.

Grantees had sufficient internal controls in place to ensure that sub-grantees and
service providers enrolled only eligible participants. To determine if only eligible
participants were served, we statistically selected 377 of 5,895 4 participants from 9 of
45 grantees and tested for eligibility compliance. Only 1 of the 377 participants selected
in our sample was found to be ineligible because they had been employed prior to
accepting an OJT position. Based on our results, we projected 5,880 5 (99.8 percent)
eligible participants were served under this program.

Regarding service provider compliance with the design and implementation of OJT
contracts, we reviewed 369 Recovery Act OJT NEG training contracts to determine
whether the contracts were structured and put in place in accordance with the terms
and conditions of the grant. The terms and conditions of the grant and TEGL No. 4-10
outline the requirements for the OJT contracts. The sub-grantees and service providers
were allowed to develop and implement their own contracts for the grant, which resulted
in inconsistencies of the terms and conditions in the OJT contracts. There were 225
exceptions noted in 139 of the 369 contracts reviewed.

The service providers entered into contracts with local employers for each participant
receiving on-the-job training. Issues were identified in the selection of the employers
and the execution of the written contract. We identified 53 contracts issued between the
service provider and the employer that did not ensure the employer’s responsibility for
documenting skills gained by the dislocated workers during the training period.
Additionally, there were 23 contracts that were either dated subsequent to the training
start date or did not include the date of execution, which could indicate the participant
was already employed prior to entering into the contract. Further, it could not be
assured for 13 contracts reviewed that the service provider adequately evaluated the
employer regarding displacement of workers in order to provide an OJT position or
adequately evaluated employer size to determine the allowable reimbursement
percentage. Lastly, for 3 contracts the hours authorized for training did not agree with
the hours determined in the training plan that outlined the specific skills and duration to
learn those skills.

For each participant receiving OJT services, a training plan was developed that outlined
the skills to be learned by the participant and the length of time needed to adequately
train the participant. The duration of the contract was limited to 6 months. Exceptions
were identified in the development of those training plans: 51 training plans identified

4
  5,895 was the universe initially provided by ETA. Analysis of the participant data provided by the selected grantees
and the quarterly performance reports provided by ETA for those grantees not selected as of September 30, 2011
disclosed 5,520 participants were provided OJT services as of September 30, 2011.
5
  We projected with 95 percent confidence that there were between 5,867 and 5,893 eligible participants with a point
estimate of 5,880.



                                                                                          Recovery Act OJT NEG
                                                      3                              Report No. 18-14-001-03-390
                                                                  Prepared by McBride, Lock & Associates
                                              For the U.S. Department of Labor – Office of Inspector General


that did not list the number of hours needed to attain each individual skill; 26 training
plans that had durations longer than the 6 month duration allowed or in excess of the
equivalent of 1,040 hours; 29 contracts where a documented skills gap assessment to
determine the appropriate length of time needed for the training plan was not
maintained; 24 training plans that did not evidence a participant signature or their
acknowledgement of what skills were to be learned during the training program; and 3
participants where the training program did not result in full-time employment as
outlined in the grantee directive.

The exceptions identified in the development and implementation of the contracts
resulted in $86,754 in questioned costs. These exceptions may have resulted in
inefficient or ineffective training programs. However, we could not measure the impact
of the overall efficiency and effectiveness of the program based on the exceptions
identified. Further detail of the results and questioned costs are provided in Exhibit 3.

B. Approximately 78 percent of sampled participants completed the training
   program, 72 percent entered employment, and 84 percent retained
   employment with OJT employers.

Generally, we found most participants we reviewed (287 of the 369 participants, or 78
percent) completed the training program. To determine training completion, we
reviewed participant case files and employer reimbursements to see if the OJT contract
was paid in full or if the participant completed training early. Given this sample, we
projected 4,478 6 (76 percent) of participants served completed training. Table 1 below
illustrates the training completion by grantee based on our audit.

                                        Table 1
                            Participant Completed Training
                               Participants Completed                             Completion
             Grantee             Reviewed       Training                            Rate
             California                  85             68                              80%
             Cherokee Nation             11              6                              55%
             Florida                     45             32                              71%
             Missouri                    24             20                              83%
             New Hampshire               25             19                              76%
             New Jersey                  23             19                              83%
             New York                    60             46                              77%
             North Carolina              44             31                              70%
             Washington                  52             46                              88%
             Total                      369           287                               78%


6
  We projected with 95 percent confidence that there were between 4,210 and 4,747 participants that completed
training with a point estimate of 4,478.



                                                                                       Recovery Act OJT NEG
                                                    4                             Report No. 18-14-001-03-390
                                                                  Prepared by McBride, Lock & Associates
                                              For the U.S. Department of Labor – Office of Inspector General


We found 351 of the 369 sampled participants were reported as having exited the
program and we verified that 316 of the 351 sampled participants who had an exit date
had entered employment. As a result, 316 participants were used as the denominator in
the calculation for the entered employment rate. Of the 316 participants, 226 were
employed in the quarter subsequent to exiting the program (72 percent). 7 Because of
the timing of our audit efforts relative to the participants’ exit dates, we were able to
verify that 182 of the 226 sampled participants who entered employment retained
employment during the second and third quarter after their exit from the program. As a
result, 182 participants were used as the denominator in the calculation for retention
rate. Of the 182 participants, 153 earned wages in both the second and third quarters
after exit and were therefore considered retained (84 percent). 8 We projected 3,710 9
(62.9 percent) of participants served entered employment and 2,624 10 (44.5 percent)
retained employment in the second and third quarter after exit. Tables 2 and 3 below
illustrate the participant by grantee based on our audit.

                                             Table 2
                                Participant Entered Employment
                                            Confirmed                                             Entered
                           Participants Participants       Entered                              Employment
                                                               11
Grantee                      Reviewed                Exited             Employment                    Rate
California                          85                         64               45                        70%
Cherokee Nation                     11                         11                5                        45%
Florida                             45                         39               22                        56%
Missouri                            24                         17               13                        76%
New Hampshire                       25                         22               17                        77%
New Jersey                          23                         23               14                        61%
New York                            60                         50               40                        80%
North Carolina                      44                         41               28                        68%
Washington                          52                         49               42                        86%
Total                              369                        316              226                        72%
    11
       Of the participants sampled, 351 had an exit date. However, only 316 of 351 could be confirmed through
    interviews and review of records whether they had entered employment.




7
  For comparison, ETA provided PY2010 overall WIA Dislocated workers entered employment rate of 57.3 percent.
This rate was not audited.
8
  For comparison, ETA provided PY2010 overall WIA Dislocated workers employment retention rate of 81.9 percent.
This rate was not audited.
9
  We projected with 95 percent confidence that there were between 3,406 and 4,014 participants that entered
employment with a point estimate of 3,710.
10
   We projected with 95 percent confidence that there were between 2,278 and 2,971 participants that retained
employment with a point estimate of 2,624.



                                                                                        Recovery Act OJT NEG
                                                    5                              Report No. 18-14-001-03-390
                                                                Prepared by McBride, Lock & Associates
                                            For the U.S. Department of Labor – Office of Inspector General


                                           Table 3
                                  Participant Retention Rate
                                          Confirmed
                          Participants      Entered         Retained                            Retention
                                                                  12
Grantee                    Reviewed            Employment              Employment                   Rate
California                        85                   24                      24                      100%
Cherokee Nation                   11                    4                       4                      100%
Florida                           45                   21                      15                       71%
Missouri                          24                   13                      10                       77%
New Hampshire                     25                   13                      13                      100%
New Jersey                        23                    4                       4                      100%
New York                          60                   32                      28                       88%
North Carolina                    44                   31                      23                       74%
Washington                        52                   40                      32                       80%
Total                            369                  182                     153                       84%
   12
     Of the 226 participants that entered employment only 182 participants could be confirmed whether they had
   entered employment based on the timing of audit efforts and the date of exit.

For purposes of Recovery Act OJT NEG reporting, the common measures as outlined in
TEGL 17-05 were used for the entered employment rate and the retention rate.

We interviewed participants and employers, and reviewed service provider records to
determine the outcomes of the program as they pertain to participant training
completion, entered employment, and retention. Standardized interviews were
conducted with the sampled participants and their OJT employer to substantiate entered
employment and retention rates of the participants. Four attempts were made for each
participant and employer to make this determination. Additionally, service provider
records were reviewed when possible to further substantiate the outcomes of the
program. However, we could not substantiate outcomes for all participants. Accordingly,
those participants not substantiated were not considered in the calculation for entered
employment and retention.

C. Some employers were not properly and accurately reimbursed for training.

We evaluated employer reimbursements for the participants selected for training hours
that occurred prior to September 30, 2011. The employers were required to submit with
their invoices timesheets and/or payroll registers to support the training hours incurred.
The level of documentation required varied at each of the grantees as well as the
sub-grantees and service providers.




                                                                                      Recovery Act OJT NEG
                                                   6                             Report No. 18-14-001-03-390
                                                                      Prepared by McBride, Lock & Associates
                                                  For the U.S. Department of Labor – Office of Inspector General




We reviewed employer reimbursements for 369 13 participants, which totaled
$1,370,859, to determine if reimbursements were made to the employers in accordance
with guidance provided by TEGL 4-10, grantee implementation plans, and the OJT
contracts between the employer and the service provider. The review of the employer
reimbursements disclosed instances of improper payments that resulted in questioned
costs of $275,513. The service providers did not have proper controls in place to ensure
that reimbursements were made in accordance with the grant requirements and based
on actual wages paid to the participant.

The service providers did not maintain adequate documentation for 54 sample
participants to support the basis of reimbursement. Documentation was maintained for
the number of hours worked by the participant. However, there was no verification of the
wage rate paid by the employer through inspection of a payroll register or similar
document. This resulted in $252,040 in unsupported reimbursement to employers.

Reimbursement rates used for payments for 5 participants were not in agreement with
the OJT contract or the percentage was higher than allowed by the grantee. This
resulted in $21,635 in excess reimbursements.

Employer reimbursements for 24 participants disclosed that employers were reimbursed
for: training hours provided prior to the execution of an OJT contract; non-training or
unsupported hours; wage rates in excess of the State average hourly rate; or hours in
excess of the number of hours agreed to in the OJT contract. This resulted in $1,838 in
excess reimbursements.

Employer reimbursements for 15 participants disclosed that the documentation
maintained to support the reimbursement did not clearly identify the start date of the
participant or the number of actual hours worked by the participant.

The exceptions identified in the employer reimbursements resulted in $275,513 in
questioned costs. Further detail of the results and questioned costs by locations are
provided in Exhibit 4.

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Employment and Training:

     1. Require grantees to follow ETA guidance and ensure OJT contracts are
        designed in compliance with the terms and conditions of the grant, including
        documentation requirements.

13
  We tested 377 participants for program eligibility. Eight of the 377 participants tested for eligibility were not further
tested because the actual training was initiated subsequent to September 30, 2011. As a result, we tested 369
participant contracts.



                                                                                              Recovery Act OJT NEG
                                                         7                               Report No. 18-14-001-03-390
                                                        Prepared by McBride, Lock & Associates
                                    For the U.S. Department of Labor – Office of Inspector General




   2. Recover $362,267 in questioned costs, as appropriate. This includes making a
      final determination of unsupported costs and inaccurate payments or
      overpayments.

ETA Response

The Acting Assistant Secretary agreed with the recommendations and stated ETA
currently requires grantees to follow ETA OJT guidance. As ETA continues to
encourage the use of OJT, ETA will consider the recommendations when producing
new or updated guidance and technical assistance for state and local workforce areas
and when monitoring grantee activities. Additionally, ETA will follow the standard audit
resolution process and will issue a final determination and seek recovery of any
disallowed costs. The Acting Assistant Secretary’s entire response is contained in
Appendix D.

We appreciate the cooperation and courtesies ETA, grantees, and sub-grantees
extended to McBride, Lock & Associates during this audit.




McBride, Lock & Associates




                                                                         Recovery Act OJT NEG
                                         8                          Report No. 18-14-001-03-390
                                Prepared by McBride, Lock & Associates
            For the U.S. Department of Labor – Office of Inspector General




Exhibits





                                                 Recovery Act OJT NEG
                 9                          Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                             Recovery Act OJT NEG
            10                          Report No. 18-14-001-03-390
                                                              Prepared by McBride, Lock & Associates
                                          For the U.S. Department of Labor – Office of Inspector General


                                                                                               Exhibit 1
Recovery Act On-the-Job Training National Emergency Grants Awarded
No.    Organization Name                                                                       Amount
  1.   Agency for Workforce Innovation (FL)                                            $      3,462,110
  2.   Alabama Department of Economic & Community Affairs                                     1,444,144
  3.   Alaska Department of Labor and Workforce Development                                     715,684
  4.   California Employment Development Department                                           9,990,477
  5.   Cherokee Nation                                                                          850,357
  6.   Colorado Department of Labor & Employment                                              1,137,558
  7.   Connecticut Department of Labor                                                          673,776
  8.   Delaw are Department of Labor                                                            675,544
  9.   Department of Commerce and Economic Opportunity (IL)                                   3,248,780
 10.   District of Columbia Department of Employment Services                                   627,753
 11.   Georgia Department of Labor                                                            2,023,944
 12.   Idaho Department of Labor                                                                625,535
 13.   Indiana Department of Workforce Development                                            1,318,642
 14.   Iow a Workforce Development                                                              990,347
 15.   Kansas Department of Commerce                                                            641,903
 16.   Kentucky Education Cabinet, Department for Workforce Investment                          978,725
 17.   Louisiana Workforce Commission                                                         1,415,062
 18.   Maryland Department of Labor, Licensing and Regulation                                 1,971,169
 19.   Massachusetts Department of Workforce Development                                      1,065,670
 20.   Michigan Department of Energy, Labor & Economic Grow th                                3,791,794
 21.   Mississippi Department of Employment Security                                          1,651,549
 22.   Missouri Division of Workforce Development                                             1,284,243
 23.   Montana Department of Labor and Industry Workforce Services Division                     889,009
 24.   Nebraska Department of Labor                                                             534,080
 25.   New Hampshire Department of Resources & Economic Development                             972,474
 26.   New Jersey Department of Labor & Workforce Development                                 1,477,396
 27.   New Mexico Department of Workforce Solutions                                             354,902
 28.   New York State Department of Labor                                                     3,426,727
 29.   North Carolina Department of Commerce Division of Employment and Training              3,142,366
 30.   Ohio Department of Job and Family Services                                             3,865,742
 31.   Oklahoma Employment Security Commission                                                  652,924
 32.   Orutsararmiut Native Council (AK)                                                        286,387
 33.   Pennsylvania Department of Labor & Industry                                            2,697,393
 34.   Seminole Nation of Oklahoma                                                              236,668
 35.   South Carolina Department of Employment and Workforce                                  1,327,704
 36.   South Dakota Department of Labor                                                         617,040
 37.   State Department of Labor and Industrial Relations (HI)                                  601,873
 38.   State of Oregon Department of Community Colleges & Workforce Development               2,119,166
 39.   Tennessee Department of Labor and Workforce Development                                1,170,677
 40.   Texas Workforce Commission                                                             3,524,688
 41.   Vermont Department of Labor                                                              293,264
 42.   Virginia Community College System                                                      1,498,683
 43.   Washington State Employment Security Department                                        1,960,262
 44.   Wisconsin Department of Workforce Development                                          2,274,814
 45.   Workforce West Virginia                                                                  490,993
                                                                               Total   $     74,999,998




                                                                                    Recovery Act OJT NEG
                                               11                              Report No. 18-14-001-03-390
                                Prepared by McBride, Lock & Associates
            For the U.S. Department of Labor – Office of Inspector General








    PAGE INTENTIONALLY LEFT BLANK





                                                 Recovery Act OJT NEG
                12                          Report No. 18-14-001-03-390
                                                                 Prepared by McBride, Lock & Associates
                                             For the U.S. Department of Labor – Office of Inspector General


                                                                                                    Exhibit 2
Selected Sub-grantees and Participants
                                                                                     Participants    Participants
No.     Sub-grantee                                                                    Served         Selected
New Hampshire Department of Resources & Economic Development
1.        Southern New Hampshire Services, Inc.                                          90              25
New Jersey Department of Labor & Workforce Development
2.        Atlantic/Cape May Workforce Investment Board                                    5               5
3.        Essex County Department of Economic Development, Training and Employment       15              11
4.        Workforce Investment Board of Passaic County                                   7               7
New York State Department of Labor
5.        Broome – Tioga Workforce New York                                              67              25
6.        Cattaraugus-Allegany Workforce Investment Board, Inc.                          11              10
7.        Cayuga-Cortland Workforce Investment Board                                      6               6
8.        Columbia-Greene Workforce New York                                             14              14
9.        Genessee, Livingston, Orleans, Wyoming Workforce Investment Board              6               6
Agency f or Workforce Innovation (FL)
10.      Workforce Development Board of Okaloosa and Walton Counties                     27              11
11.      Tampa Bay Workforce Alliance                                                     4               4
12.      Pasco Hernando Workforce, Inc.                                                  41              11
13.      Workforce Alliance                                                               9               9
14.      South Florida Workforce Investment Board                                        13              11
North Carolina Department of Commerce Division of Employment and Training
15.      Eastern Carolina Workforce Development Board                                    28              11
16.      High Country Workforce Development Board                                        36              11
17.      Region C Workforce Development Board                                            96              11
18.      Western Piedmont Workforce Development Board                                    77              11
Cherokee Nation                                                                          38              11
Missouri Division of Workforce Development
19.      Northeast Missouri Workforce Investment Board, Inc.                              3               2
20.      Workforce Investment Board of Southeast Missouri                                10              10
21.      St. Charles County Department of Workforce Development                           4               3
22.      St. Louis Agency on Training and Employment                                     10              10
California Employment Development Department
23.      Golden Sierra Consortium                                                         7               4
24.      City of Los Angeles                                                             59              11
25.      Los Angeles County                                                              67              11
26.      Madera County Workforce Investment Board                                        20               9
27.      Monterey County Workforce Investment Board                                      34              11
28.      Northern Rural Training and Employment Consortium                               42              11
29.      Pacific Gatew ay Workforce Investment Netw ork                                   9               8
30.      City of Richmond                                                                14              11
31       Santa Cruz County                                                               13              11
Washington State Employment Security Department
32.      Pacific Mountain Workforce Development Council                                  34              11
33.      Southw est Washington Workforce Development Council                             40              11
34.      North Central Workforce Development Council                                     44              11
35.      South Central Workforce Development Council                                     30              11
36.      Eastern Washington Partnership Workforce Development Council                    25              11
Total Participants Selected                                                             1055             377




                                                                                      Recovery Act OJT NEG
                                                  13                             Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





  





                                             Recovery Act OJT NEG
            14                          Report No. 18-14-001-03-390
                                                                        Prepared by McBride, Lock & Associates
                                                    For the U.S. Department of Labor – Office of Inspector General


                                                                                                                Exhibit 3
    Detail of On-the-Job Training Contract Issues

    The issues identified in the design and implementation resulted in 139 contracts with
    225 exceptions. Additionally, these exceptions resulted in $86,754 in questioned costs
    and are identified by Grantee in Table 3-1. Some other exceptions were identified that
    did not result in questioned costs and are identified by Grantee in Table 3-2. The detail
    relating to each exception and the related questioned costs are as follows:
    11

                                                    Table 3-114

              Inconsistencies of the Term s and Conditions in the OJT Contracts With Questioned Costs

                   Did not result into                                                    Authorized
                  full time employment   Contract exceeded    Skills gap assessment    additional hours
                            (A)            Six Months (B)               (C)                   (D)                  Totals
      Grantee      #         Amount       #       Amount       #          Amount       #       Amount     #          Amount
California          3 $          4,661      5 $         -      11 $           17,829    - $         -     19     $        22,490
Cherokee Nation      -             -        -           -         -              -      1           -      1                 -
Florida              -             -        6           -      15             58,588    1           -     22              58,588
Missouri             -             -        1           300      1             3,526    -           -      2               3,826
New Hampshire        -             -        1           -         -              -      -           -      1                 -
New Jersey           -             -        1           -         -              -      -           -      1                 -
New York             -             -        8           -        1               360    1           176   10                 536
North Carolina       -             -        4         1,314      1               -      -           -      5               1,314
Washington           -             -        -           -         -              -      -           -       -                -
Totals              3            4,661    26          1,614    29             80,303    3           176   61              86,754

         14
           The table includes contracts with exceptions that did not result in questioned costs. The questioned costs were
         not provided if the reimbursement occurred for hours trained subsequent to September 30, 2011, or the contract
         ended prior to completion.

         A. 3 OJT contracts did not result in full-time employment for the participant after the
            training period. It was noted that 2 of the 3 participants were trained at part-time
            hours during the training period in accordance with the contract. TEGL 04-10
            states the OJT contract should be developed to maximize the potential of
            trainees to be permanently hired once the training period has ended. Additionally
            the Grantee, where these contracts occurred, issued a directive stating that the
            employers selected to provide OJT must be looking to hire the employee full-time
            after the training term is completed. Employers were reimbursed for training for
            these part-time employees which resulted in questioned costs of $4,661.
         B. 26 contracts disclosed the training plan duration as stated on the contract or
            actual hours worked was in excess of 6 months or the equivalent of 1,040 hours.
            The OJT duration limit as outlined in the TEGL 04-10 is six months. The hours
            worked subsequent to the 6 month duration or 1,040 hours resulted in
            questioned costs of $1,614. 15


    11
    15
       Questioned costs of $504 for New Hampshire were excluded from this amount as 1 contract was also questioned
    in Results C. Therefore, total questioned costs for this exception is $2,118.



                                                                                              Recovery Act OJT NEG
                                                         15                              Report No. 18-14-001-03-390
                                                                     Prepared by McBride, Lock & Associates
                                                 For the U.S. Department of Labor – Office of Inspector General


         C. 29 contracts indicate the skills gap assessment was not adequately performed in
            order to determine an appropriate length of training. Workforce Investment Act
            section 101(31) states that OJT is limited in duration as appropriate to the
            occupation for which the participant is being trained, taking into account the
            content of the training, the prior work experience of the participant, and the
            service strategy of the participant, as appropriate. Without a formally documented
            skills gap assessment it cannot be assured that previous work history and
            aptitudes were considered in determining the length of time required for the OJT
            training contract. It also could not be determined whether the participant was in
            need of any training for the OJT position. Employers were reimbursed for training
            that was not documented as required and resulted in questioned costs of
            $80,303.
         D. 3 OJT contracts’ authorized hours were more than the hours that were outlined
            for the specific skills in the training plan. WIA section 101(31) states that an OJT
            is limited in duration as appropriate to the occupation for which the participant is
            being trained, taking into account the content of the training, the prior work
            experience of the participant, and the service strategy of the participant, as
            appropriate. The OJT contracted hours did not consider the hours outlined in the
            training plan to arrive at an appropriate duration. Employers were reimbursed for
            hours in excess of the authorized hours and resulted in questioned costs of
            $176. 16

                                                  Table 3-2
         Inconsistencies of the Terms and Conditions in the OJT Contracts Without Questioned Costs
                      Did not
                      ensure                               No documentation Did not identify Training
                     employers        Contract Dates          of employer     hours to attain Plans not           Total
     Grantee      responsiblity (E)         (F)              evaluation (G)   each skill (H) signed (I)        Exceptions
California                        -                 7                       2             22          -                 31
Cherokee Nation                   -                  -                     11               -         -                 11
Florida                         11                  8                       -               -         -                 19
Missouri                          -                  -                      -               -         -                  -
New Hampshire                     -                  -                      -               -         -                  -
New Jersey                      23                   -                      -             18        18                  59
New York                          -                 2                       -               -        6                   8
North Carolina                    -                 1                       -               -         -                  1
Washington                      19                  5                       -             11          -                 35
Totals                          53                23                       13             51        24                164


         E. 53 OJT contracts did not ensure the employer’s responsibility for documenting
            skills gained by the dislocated workers during the training period. This is required
            per TEGL No. 4-10 (5)(D). These instances of non-compliance did not result in
            questioned costs.


    16
      Questioned costs of $679 for the Cherokee Nation were excluded from this amount as 1 contract was also
    questioned in Results C. Therefore, total questioned costs for this exception is $855.



                                                                                          Recovery Act OJT NEG
                                                      16                             Report No. 18-14-001-03-390
                                                     Prepared by McBride, Lock & Associates
                                 For the U.S. Department of Labor – Office of Inspector General


F. 23 contracts were either dated subsequent to the training start date, or were not
    dated; the contract is required to be agreed upon prior to the training start date.
    This is a possible indication that the service provider has not completed their due
    diligence in ensuring that the contract was structured in compliance with the
    terms and conditions of the grant. Questioned costs were not determinable.
G. 13 contracts did not evidence the service provider documented that the employer
    was evaluated regarding displacement of workers in order to provide OJT
    positions or the employer size to determine the appropriateness of the employer
    reimbursement. TEGL 04-10 allows for a sliding reimbursement scale of up to 90
    percent based on the employer size or documented skills gap. Additionally, 20
    CFR § 667.270 imposes safeguards to prevent WIA participants from displacing
    other employees. Without proper evaluation of the employers the OJT may result
    in workers being displaced in order to allow for subsidized employment or the
    employer may get a higher reimbursement percentage than allowed by the grant
    terms and conditions. Questioned costs were not determinable.
H. 51 training plans developed for the participant did not identify the number of
    hours needed to attain each individual skill. WIA section 101(31) states that an
    OJT is limited in duration as appropriate to the occupation for which the
    participant is being trained, taking into account the content of the training, the
    prior work experience of the participant, and the service strategy of the
    participant, as appropriate. In order to adequately determine the duration it would
    benefit the negotiations of the service provider and the employer to identify the
    number of hours it will take to train for each skill. Questioned costs were not
    determinable.
I. &24 contracts disclosed the training plans were not signed by the participant to
    ensure that the participant is made aware of the skills to be attained during the
    training period. WIA section 101(31) states that an OJT provides knowledge or
    skills essential to the full adequate performance of the job. The participant may
    not be fully aware of the skills to be attained which may lead to an unsuccessful
    training program. Questioned costs were not determinable.




                                                                      Recovery Act OJT NEG
                                     17                          Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                             Recovery Act OJT NEG
            18                          Report No. 18-14-001-03-390
                                                                                                            Prepared by McBride, Lock & Associates
                                                                                        For the U.S. Department of Labor – Office of Inspector General




                                                                                                                                                    Exhibit 4
Detail of Improper Employer Reimbursements

The issues identified in the improper employer reimbursements resulted in 89 contracts with 98 exceptions. Additionally,
these exceptions resulted in $275,513 in questioned costs and are identified by Grantee in Table 4-1. Some other
exceptions were identified that did not result in questioned costs and are identified by Grantee in Table 4-2. The detail
relating to each exception and the related questioned costs are as follows:

                                                                        Table 4-1

                                 Em ployers Inaccurately Reim bursed for Training With Questioned Costs

                                                       Inaccurate     No      Reim bursed                                     Paid Holiday
                      No Payroll        Excess       Reim bursem e Supported Hours Prior to                    Excess          and Tim e
                      Registers        Wage Rate           nt        Wages     Start Date                       Hours              off
                         (A)              (B)         Percentages     (D)          (E)                           (F)               (G)               Totals
State            #          Amount     #   Amount    #       Amount         #   Amount       #       Amount    # Amount #         Amount       #         Amount

California       11     $     38,666   3   $   189   0   $         -        1   $       36   0   $       -     0   $ -        0   $   -        15    $     38,891
Cherokee Nation 10            25,626   0       -     0             -        0       -        0           -     0     -        0       -        10          25,626
Florida          0               -     0       -     0             -        1           12   1           -     0     -        0       -        2                  12
Missouri         0               -     0       -     4        21,563        1       452      0           -     1         22   0       -        6           22,037
New Hampshire    22          157,058   0       -     0             -        0       -        0           -     0     -        0       -        22         157,058
New Jersey       0               -     0       -     0             -        0       -        0           -     1     -        0       -        1              -
New York         0               -     0       -     0             -        2       576      0           -     0     -        4       -        6              576
North Carolina   0               -     0       -     0             -        0       -        0           -     0     -        1           68   1                  68
Washington       11           30,690   4       -     1                 72   0       -        2           395   0          -   2           88   20          31,245
Totals           54     $    252,040   7   $   189   5   $    21,635        5   $ 1,076      3   $       395   2   $ 22       7   $   156      83    $    275,513




                                                                                                                                   Recovery Act OJT NEG
                                                              19                                                              Report No. 18-14-001-03-390
                                                                  Prepared by McBride, Lock & Associates
                                              For the U.S. Department of Labor – Office of Inspector General


     A. Timesheets were provided in lieu of payroll registers to support the hours and
        wage rate of the participant. Without payroll registers or paystubs it cannot be
        assured that the employer paid the participant and therefore eligible for the
        reimbursement. This occurred in 54 contracts reviewed and resulted in $252,040
        in questioned costs.
     B. The wage rate used for basis of reimbursement was in excess of the state
        average hourly wage for certain contracts. TEGL 04-10 states that the
        reimbursement level is not to exceed a percentage of the state’s average hourly
        wage rate. This occurred in 7 contracts reviewed and resulted in $18917 in
        questioned costs.
     C. The reimbursement percentage used did not agree with the percentage outlined
        in the OJT contract with the employer or was higher than what is allowable.
        TEGL 04-10 stated that for the OJT NEGs the negotiated reimbursement
        percentage may be as high as 90 percent of the participant’s hourly wage based
        on either the employer size or the participant’s skills gap. It was noted that 4
        contracts at one Sub-grantee were reimbursed at 90 percent. However, the
        Grantee’s OJT policy and implementation plan indicates that the reimbursement
        is limited to 50 percent to allow for the delivery of more OJT contracts. It was
        indicated that it was allowed to use the sliding scale up to 90 percent at the
        beginning of the grant period but was later not allowed without a waiver. There
        was no written confirmation of this allowance. This occurred in 5 contracts
        reviewed and resulted in $21,635 in questioned costs.
     D. The wages reimbursed did not agree with the supporting payroll documentation
        or were not made in accordance with the contract terms. Instances were noted
        where the invoices were reimbursed for wage rates that did not agree with the
        stated rates in the contract or actual wage rates supported on payroll registers.
        There were instances noted where the employer reimbursement was reimbursed
        on hours that were not supported by the payroll registers or timesheets. This
        occurred in 5 contracts reviewed and resulted in $1,076 in questioned costs.
     E. The employer reimbursements included hours prior to the start of the contract.
        This would indicate that employment began prior to an authorized OJT contract.
        This occurred in 3 contracts reviewed and resulted in $395 18 in questioned costs.
     F. The employer reimbursements included hours in excess of the hours authorized
        by the contract. This occurred in 2 contracts reviewed and resulted in $22 in
        questioned costs.
     G. Payroll records maintained supported that the employer was reimbursed for
        holiday pay, paid time off, etc. or could not be determined if wages paid included
        these types of wages. Employer reimbursements should be for only hours and
        wages earned training and learning the skills outlined in the OJT contract. This
        occurred in 7 contracts reviewed and resulted in $156 in questioned costs.
17
   Question costs of $1,351 for California and $1,382 for Washington were excluded from this amount as 2 contracts
were also questioned in Results A and 4 contracts were also questioned in Results C. Therefore, total questioned
costs for this exception is $2,922.
18
   Questioned costs of $292 for Florida were excluded from this amount as 1 contract was also questioned in Results
A. Therefore, total questioned costs for this exception is $687.



                                                                                        Recovery Act OJT NEG
                                                   20                              Report No. 18-14-001-03-390
                                                     Prepared by McBride, Lock & Associates
                                 For the U.S. Department of Labor – Office of Inspector General


    

                                  Table 4-2
                    Employers Inaccurately Reimbursed for
                     Training Without Questioned Costs
                                           Unknown Hours
                             Unknown         on Payroll
                             Start Date       Records                Total
               State            (H)              (I)               (Number)
         California               4                  0                   4
         Cherokee Nation          0                  0                   0
         Florida                  0                  0                   0
         Missouri                 0                  0                   0
         New Hampshire            0                  0                   0
         New Jersey               0                  0                   0
         New York                 1                  7                   8
         North Carolina           0                  0                   0
         Washington               3                  0                   3
         Totals                   8                  7                  15


H. It could not be determined by the payroll records maintained in the case file if the
   participant started on or after the contract start date. Without assurance of the
   start date of the participant it cannot be assured that the OJT contract was
   appropriately approved prior to commencement. This occurred in 8 contracts
   reviewed but any questioned costs were not determinable.
I. Payroll records provided did not indicate the number of hours worked by the
   participant nor could it be determined if the appropriate number of hours were
   worked. Without proper payroll documentation it cannot be assured that the
   employer reimbursements were made only for actual hours trained and that the
   hours agreed in the training contract were provided to the participant in training.
   This occurred in 7 contracts reviewed but any questioned costs were not
   determinable.




                                                                      Recovery Act OJT NEG
                                     21                          Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                             Recovery Act OJT NEG
              22                        Report No. 18-14-001-03-390
                                  Prepared by McBride, Lock & Associates
              For the U.S. Department of Labor – Office of Inspector General




Appendices





                                                   Recovery Act OJT NEG
                    23                        Report No. 18-14-001-03-390
                            Prepared by McBride, Lock & Associates
        For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                             Recovery Act OJT NEG
              24                        Report No. 18-14-001-03-390
                                                        Prepared by McBride, Lock & Associates
                                    For the U.S. Department of Labor – Office of Inspector General

                                                                                   Appendix A
Background

The American Recovery and Reinvestment Act (Recovery Act) was signed into law by
President Obama on February 17, 2009. The Recovery Act was intended to preserve
and create jobs, promote the nation’s economic recovery, and to assist those most
impacted by the recession.

In June 2010 ETA awarded $75 million in Recovery Act funds for OJT NEGs to
41 states, the District of Columbia and 3 federally-recognized Native American tribes.
The On-the-Job Training Grants offer a method to jump start reemployment for
dislocated workers experiencing prolonged unemployment by enabling employers to
create training and job opportunities for these individuals. This was a one-time grant
opportunity.

NEGs are discretionary grants awarded by the Secretary of Labor under WIA Section
173 as amended to provide employment-related services for dislocated workers. NEGs
are intended to temporarily expand service capacity at state and local levels by
providing time-limited funding assistance in response to significant dislocation events.
Significant events include plant closures and mass layoffs, as well as other events
recognized by the Secretary of Labor under 20 CFR 671.110(f).




                                                                         Recovery Act OJT NEG
                                          25                        Report No. 18-14-001-03-390
                                Prepared by McBride, Lock & Associates
            For the U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK 





                                                 Recovery Act OJT NEG
                  26                        Report No. 18-14-001-03-390
                                                         Prepared by McBride, Lock & Associates
                                     For the U.S. Department of Labor – Office of Inspector General

                                                                                    Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

   (1)   Did the grantees ensure that Recovery Act funds were properly administered
         and awarded, and that eligible participants were served?

   (2)   Were participants trained and placed in employment, and did they continue
         employment?

   (3)   Were employers properly and accurately reimbursed for training?

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We conducted site visits to the ETA National Office in Washington, DC;
site visits or teleconferences with five Regional Offices; site visits to selected grantees
and sub-grantees; and interviews with participants and employers involved in the
program.

The audit included a review of grant documents and data available from ETA, grantees,
sub-grantees and service providers. The audit included a statistical sample of grantees
identifying 8 States and 1 Native American Indian tribe. The audit also included a
statistical sample of 36 sub-grantees. Further, the audit also included a review of case
files and structured interviews with a statistical sample of 377 participants enrolled in the
On-the-Job National Emergency Grant program as of September 30, 2011. The audit
fieldwork concluded in August 2012, which allowed for adequate time to pass in order to
confirm entered employment and retention for the majority of the participants. Eight of
the 377 participants tested for eligibility were not further tested because the actual
training was initiated subsequent to September 30, 2011. As a result, we tested 369
participant OJT contracts.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act
On-the-Job Training National Emergency Grants. We conducted interviews with ETA
officials to gain an understanding of the criteria of the grant; how the Grantees were
selected and awarded; and the technical guidance and assistance that was provided.

                                                                          Recovery Act OJT NEG
                                           27                        Report No. 18-14-001-03-390
                                                        Prepared by McBride, Lock & Associates
                                    For the U.S. Department of Labor – Office of Inspector General

We statistically sampled the 45 grantees that received these awards and selected
8 States and 1 Native American tribe. We interviewed grantee officials and reviewed the
Grantee Implementation Plan and other documents as necessary to gain an
understanding of the administration and oversight of the grant awards and how the
funds were awarded.

To evaluate program compliance we statistically sampled 36 sub-grantees and
377 participants to determine if the grant funds were used to fund eligible participants
and OJT contracts were developed in compliance with the terms and conditions of the
grant. Additionally, supporting documentation for employer reimbursements for training
received was reviewed to determine the propriety of the reimbursement.

We performed a data reliability assessment to ensure we were receiving complete and
accurate information for use in our audit testing. To determine whether data was reliable
in relation to fiscal and performance reporting, data was requested from the grantees
and analyzed for accuracy and integrity. The participant data received was sufficiently
reliable for audit purposes except for the employer reimbursement universe data.

Our sampling plan included the use of statistical sampling to determine participant
eligibility and the extent that grantees and sub-grantees had trained and placed
participants. Statistical sampling was also used to determine the extent of entered
employment and retention at the OJT employer. We could not use statistical sampling to
determine the extent of employer OJT reimbursements as we could not obtain sufficient
information to establish an OJT universe.

Our sampling plan used three-stage stratified cluster sampling as illustrated below.

STAGE-1      Statistically selected a sample of 8 states and 1 Native American tribe
             grantees from a universe of 42 states and 3 Native American tribe
             grantees;

STAGE-2      Statistically selected 36 sub-grantees from a universe of 196 sub-
             grantees;

STAGE-3      Statistically selected 377 participants from a universe of 5,895 participants
             enrolled by the 196 sub-grantees identified in stage 2.

We used a random sampling method with stratified design to provide effective coverage
of the units. To estimate the characteristics and sample sizes we used a confidence
level of 95 percent plus or minus 7 percent.

We also conducted structured interviews with participants and their employers and
reviewed participant case files to determine completion of training and entered
employment outcomes and to inquire if the program led to continued employment with
the OJT employer. The Common Measures Policy outlined in TEGL 17-05 was used to
calculate the employment and retention rate.


                                                                         Recovery Act OJT NEG
                                          28                        Report No. 18-14-001-03-390
                                                        Prepared by McBride, Lock & Associates
                                    For the U.S. Department of Labor – Office of Inspector General



The entered employment rate was calculated as follows:

Numerator = the number of participants selected in our sample that were substantiated
as employed by the OJT employer in the first quarter after the exit quarter.

Denominator = the number of participants selected in our sample that had exited the
program.

The retention rate was calculated as follows:

Numerator = the number of participants selected in our sample that were substantiated
as employed by the OJT employer in both the second and third quarter after the exit
quarter.

Denominator = the number of participants selected in our sample that were
substantiated as employed by the OJT employer in the first quarter after the exit
quarter.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations and other requirements. This included gaining an
understanding of ETA, grantees and sub-grantees written policies and guidance for
administration of the OJT NEG funds. We confirmed our understanding of these
controls and procedures through interviews and participant file review and analysis. Our
consideration of these internal controls would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

Criteria

We used the following criteria to accomplish our audit:

   •   American Recovery and Reinvestment Act of 2009, dated February 17, 2009
   •   Workforce Investment Act of 1998, as amended, dated August 7, 1998
   •   Workforce Investment Act Regulations – 20 CFR 667 and 671, dated August 11,
       2000
   •   Training and Employment Guidance Letter No. 16-03, National Emergency Grant
       (NEG) Policy Guidance, dated January 26, 2004
   •   Training and Employment Guidance Letter No. 17-05, Common Measures Policy
       for the Employment and Training Administration’s (ETA) Performance
       Accountability System and Related Performance Issues, dated February 17,
       2006
   •   Training and Employment Guidance Letter No. 14-08, Guidance for 

       Implementation of the Workforce Investment Act and Wagner-Peyser Act 



                                                                         Recovery Act OJT NEG
                                          29                        Report No. 18-14-001-03-390
                                                  Prepared by McBride, Lock & Associates
                              For the U.S. Department of Labor – Office of Inspector General

    Funding in the American Recovery and Reinvestment Act of 2009 and State
    Planning Requirements for Program Year 2009, dated March 18, 2009
•   Training and Employment Guidance Letter No. 19-08, National Emergency
    Grants Funded with American Recovery and Reinvestment Act of 2009
    Resources, dated April 30, 2009
•   Training and Employment Notice No. 38-09, American Recovery and
    Reinvestment Act of 2009 On-the-Job Training National Emergency Grants,
    dated April 12, 2010
•   Training and Employment Guidance Letter No. 04-10, On-the-Job Training
    National Emergency Grants (OJT NEGs) Funded with American Recovery and
    Reinvestment Act of 2009 Resources, dated August 6, 2010




                                                                   Recovery Act OJT NEG
                                    30                        Report No. 18-14-001-03-390
                                                     Prepared by McBride, Lock & Associates
                                 For the U.S. Department of Labor – Office of Inspector General

                                                                                Appendix C
Acronyms and Abbreviations

DOL            Department of Labor

ETA            Employment and Training Administration

OIG            Office of Inspector General

OJT            On-the-Job Training

NEG            National Emergency Grant

Recovery Act   American Recovery and Reinvestment Act of 2009

TEGL           Training and Employment Guidance Letter

WIA            Workforce Investment Act




                                                                      Recovery Act OJT NEG
                                       31                        Report No. 18-14-001-03-390
                                Prepared by McBride, Lock & Associates
            For the U.S. Department of Labor – Office of Inspector General









    PAGE INTENTIONALLY LEFT BLANK 





                                                 Recovery Act OJT NEG
                  32                        Report No. 18-14-001-03-390
                                                                  Prepared by McBride, Lock & Associates
                                              For the U.S. Department of Labor – Office of Inspector General

                                                                                                        Appendix D
ETA Response to Draft Report


     U.S. Department of labor                    Assist<mi Secret~ry for
                                                 Employment and Tra1ning
                                                 Washington, D.C. 20210
          JAN 1 3 1014



       lviEMORANDUM FOR:


       FROM:



       SUBJECr:                     Recovery Act Outcomes From On-The-Job Training National
                                    Emergency Grants Funded Under The Recovery Act, Report Number:
                                    (18-14-001-03-390)

       Thank you for the opportunity to conunent on the draft report about outcomes associated with the
       On-the-Job (OJT) National Emergency Grants (NEG). The Employment and Training
       Administration (ETA) appreciates the Office of the Inspector General's (OIG) audit to document.
       the first major, successful effort of the public workforce system in many years to use OJT to
       encourage employers to hire workers, particnlarly the long-term unemployed, and give those
       workers the opportunity to learn new skills while eaming a paycheck.

       ETA appreciates the OIG's finding that overall, grantees had sufficient controls in place to ensure
       that eligible participants were served in the OJT program. While OJT is associated with positive
       employment and earnings outcomes, in the years leading up to these NEG grants, state and local
       workforce area use of OJT appeared to decrease. As a result, the system's capacity to develop and
       implement quality OJT programs diminished. ETA provided extensive guidance and technical
       assistance to OJT NEG grantees to help them successfully implement the OJT program, including
       Training and Employment Guidance Letter 4-10 issued in August 2010. Thus, we are pleased to              .I,,
       leam that based upon its sampled items, the OIG projected U1at nationwide, 76 percent of
       participants completed O.TT and of those, nearly 83 percent entered employment; and of those who
       entered employment, almost 71 percent were retained.

       ETA agrees with the OIG's two recommendations.

       Recommendation 1: Require that grantees follow ETA guidance and ensure OJT contracts are
       designed in compliance with the terms and conditions ofthe grant, including documentation
       r:equirements.

       ETA requires ETA grantees to follow federal rules and formal guidance in implementing O.T'l'
       programs, including O.TT contracts with employers. As we continue to encourage the use of OJT,
       we will consider this recommendation as we produce new or updated guidance and technical
       assistance for state and local workforce areas and monitor their activities.

       Recommendation 2: Recover $362,267 in questioned costs, as appropriate. This includes making a
       fiMtl determination of unsupported costs and inaccurate payments or overpayments.




                                                                                           Recovery Act OJT NEG
                                                     33                               Report No. 18-14-001-03-390
                                                         Prepared by McBride, Lock & Associates
                                     For the U.S. Department of Labor – Office of Inspector General




ETA follows the standard audit resolution process at 20 CFR 667.500. If ETA finds any disallowed
costs, ETA will work through this audit resolution process, issue a final determination, and seek
recovery of the disallowed costs from appropriate OJ'I' NEG grantees.




                                                                                 Recovery Act OJT NEG
                                            34                              Report No. 18-14-001-03-390






    TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

    Online:   http://www.oig.dol.gov/hotlineform.htm
    Email:    hotline@oig.dol.gov

    Telephone:      1-800-347-3756
                    202-693-6999

    Fax:            202-693-7020

    Address: Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210




